July 2008
Report No. AUD-08-012


FDIC’s EXAMINATION OF LIQUIDITY
RISK




            AUDIT REPORT
                                                  Report No. AUD-08-012                                                          July 2008

                                                  FDIC’s Examination of Liquidity Risk
   Federal Deposit Insurance Corporation          Audit Results
Why We Did The Audit                              The FDIC actively addresses institution liquidity risk through regulatory and
                                                  supervisory activities. For the 40 financial institutions in our sample, we found that the
Liquidity represents the ability of a financial   FDIC examiners complied with applicable examination guidance for assessing an
institution to fund assets and meet               institution’s liquidity and associated risk management and reported on those assessments
obligations as they become due. Insured           in their work products and examination results. Specifically, we found that:
deposits are a common source of liquidity
for FDIC-supervised financial institutions.        • Examiners reported on significant liquidity risk management controls, including
Further, liquidity is critical to the ongoing         board and senior management oversight, written policies and procedures,
viability of an institution, and the FDIC             management reporting, internal controls, and CLPs; and sources of funding for each
considers liquidity management to be among            of the 40 financial institutions. Examiners frequently made suggestions and
an institution’s most important activities.           recommendations for improvement.

The audit objective was to assess how the          • Seventeen of the 40 financial institutions were subject to informal or formal
FDIC addresses institution liquidity risk             enforcement actions, 13 of which included provisions for financial institutions to
through various regulatory and supervisory            improve liquidity risk management.
activities. We focused our audit on those
FDIC-supervised financial institutions for        The FDIC’s efforts, including examination recommendations and enforcement actions,
which examinations resulted in lower or less      have provided a means to address liquidity risk and indicate the FDIC’s emphasis on
than satisfactory liquidity ratings.              controlling such risk.

Background                                        In addition, the FDIC has issued liquidity guidance to its examiners and FDIC-
                                                  supervised financial institutions and provided liquidity-related examiner training. The
                                                  FDIC has recognized that liquidity guidance and training need to be updated and has
Liquidity risk is the risk of not being able to
                                                  taken steps to (1) issue a revised examination module on liquidity risk examination
obtain funds at a reasonable price within a
                                                  procedures, (2) participate in interagency efforts to provide additional examination and
reasonable time to meet financial institution
                                                  institution guidance, and (3) expand examiner training.
obligations as they become due. Sound
liquidity risk management controls include
                                                  We reviewed contingency liquidity planning for 31 of the 40 institutions we sampled
an institution’s board of directors’ oversight,
                                                  and identified variations in the type of information included in the plans. Additionally,
policies and procedures, management
                                                  we determined that the FDIC’s examiner guidance is more extensive than its financial
reporting, internal controls, contingency
                                                  institution guidance. With regard to the Corporation’s ongoing efforts to update
liquidity plans (CLP), and the identification
                                                  guidance to institutions on liquidity risk management and CLPs, we identified the
of funding sources. CLPs include strategies
                                                  following practices, for the FDIC’s consideration, that could assist FDIC-supervised
for handling events that can impact day-to-
                                                  financial institutions in identifying, measuring, monitoring, and controlling liquidity
day operations and liquidity crises.
                                                  risk.
The FDIC has issued financial institution
                                                   • Providing detailed descriptions of sound liquidity risk management controls,
and examiner guidance on managing
                                                      including the content of CLPs.
liquidity risk. The other federal financial
regulatory agencies and various international
                                                   • Suggesting liquidity reports and identifying red flags that are useful in assessing
and domestic organizations have also issued
                                                      liquidity and that can be used as leading indicators for liquidity risk.
guidance related to liquidity risk.
                                                  The FDIC plans to issue updated institution guidance after the international Basel
As part of the risk management
                                                  Committee on Banking Supervision has issued final liquidity risk management guidance
examinations conducted by the FDIC’s
                                                  and related interagency efforts are completed. Because we noted no matters warranting
Division of Supervision and Consumer
                                                  additional management action, we made no recommendation related to the audit
Protection (DSC), FDIC examiners
                                                  objective.
determine the adequacy of a financial
institution’s liquidity by analyzing the
institution’s current liquidity position, asset   Management Response
quality, present and future earnings capacity,
and historical and anticipated future funding     DSC provided a written response, stating that the FDIC is committed to assuring that
needs. The FDIC also assesses the adequacy        liquidity risk is appropriately assessed and mitigated through its examination and
of liquidity risk management controls.            enforcement action procedures. The FDIC also reiterated that the Corporation is
                                                  involved in various initiatives to update liquidity-related guidance for financial
                                                  institutions and examiners.


  To view the full report, go to www.fdicig.gov/2008reports.asp
Contents                                                                     Page


BACKGROUND                                                                     1
  Liquidity-related Guidelines                                                 2
  FDIC Examination Guidance Related to Liquidity Risk Management               4
  FDIC Enforcement Authority                                                   4

RESULTS OF AUDIT                                                               4

FDIC EXAMINATION OF LIQUIDITY RISK                                             6

FDIC EXAMINATION AND FINANCIAL INSTITUTION GUIDANCE FOR                        7
LIQUIDITY RISK
  DSC Risk Management Manual of Examination Policies                           8
  DSC Financial Institution Guidance                                          10
    Contingency Liquidity Planning                                            11
    Extent of Examiner Guidance Compared to Financial Institution Guidance    12
    Other Agencies’ Liquidity Risk Management Guidance                        14
  Conclusion                                                                  15

CORPORATION COMMENTS                                                          15

APPENDICES
  1. OBJECTIVE, SCOPE, AND METHODOLOGY                                        17
  2. GUIDANCE IN DSC’S EXAMINATION MANUAL ON CLPS                             22
  3. OIG COMPARISON OF LIQUIDITY GUIDANCE FOR EXAMINERS                       23
      AND FINANCIAL INSTITUTIONS
  4. OTHER FEDERAL REGULATORY AGENCIES’ LIQUIDITY-                            26
      RELATED GUIDANCE
  5. CORPORATION COMMENTS                                                     30
  6. ACRONYMS USED IN THE REPORT                                              31

TABLES
  1. Liquidity Rating Description According to DSC’s Examination Manual        9
  2. OIG Review of Contingency Planning Actions for 31 Sampled Financial      11
      Institutions
  3. Elements of Sound Liquidity Risk Management Based on Institution         13
      Guidance in FIL-59-2003
  4. The FDIC’s Activities to Address the Government Performance and          21
      Results Act

FIGURES
  1. Examples of Policies and Procedures Included in Examiner Guidance But    14
     Not in Financial Institution Guidance
  2. Red Flags That May Indicate Problems Related to Liqudity Risk            15
     Management
    Federal Deposit Insurance                                                                       Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


    DATE:                                     July 30, 2008

    MEMORANDUM TO:                            Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection


                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  FDIC’s Examination of Liquidity Risk
                                              (Report No. AUD-08-012)


    This report presents the results of our audit of the FDIC’s supervision and examination of
    liquidity risk at FDIC-supervised institutions. The FDIC’s Division of Supervision and
    Consumer Protection (DSC) is responsible for performing risk management examinations
    for FDIC-supervised financial institutions.

    The audit objective was to assess how the FDIC addresses institution liquidity risk
    through various regulatory and supervisory activities. Specifically, we reviewed (1) risk
    management examinations; (2) institution and examination policies, procedures, and
    guidance; and (3) examiner training. We conducted this performance audit in accordance
    with generally accepted government auditing standards. Appendix 1 of this report
    discusses our audit objective, scope, and methodology in detail.


BACKGROUND

    Liquidity represents a financial institution’s ability to fund assets and meet obligations as
    they become due and is essential in all banks to compensate for expected and unexpected
    balance sheet fluctuations and provide funds for growth. Liquidity risk is the risk of not
    being able to obtain funds at a reasonable price within a reasonable period to meet
    obligations as they become due. Because liquidity is critical to the ongoing viability of
    any financial institution, liquidity management is among the most important activities
    conducted by an institution.

    Funds management involves estimating and satisfying liquidity needs in the most cost-
    effective manner possible and without sacrificing income potential. Effective liquidity
    management requires financial institutions to measure the liquidity position of the
    financial institution on an ongoing basis and to determine how funding requirements may
       change due to various scenarios, including adverse situations. The formality and
       sophistication of liquidity management depends on the size and sophistication of the
       financial institution, as well as the nature and complexity of its activities. Regardless of
       the institution, adequate management reporting, strong analysis of funding requirements
       under alternative scenarios, diversification of funding sources, and contingency planning
       are crucial elements of strong liquidity management.

       Examiners’ assessment of a financial institution’s adequacy of liquidity is based on the
       Uniform Financial Institutions Rating System (UFIRS), which assigns component
       ratings, referred to as CAMELS ratings, from “1” to “5” based on a financial institution’s
       financial condition and operations. A “1” indicates the highest rating, strongest
       performance and risk management practices, and least degree of supervisory concern,
       while a “5” indicates the lowest rating, weakest performance, inadequate risk
       management practices, and the highest degree of supervisory concern. The component
       factors address the adequacy of Capital, quality of Assets, capability of Management,
       quality and level of Earnings, adequacy of Liquidity, and Sensitivity to market risk. The
       ability of financial institution management to identify, measure, monitor, and control the
       risks of its operations is also taken into account when assigning each component rating.
       Determining an institution’s liquidity adequacy requires an analysis of its current
       liquidity position, present and anticipated asset quality, present and future earnings
       capacity, historical funding requirements, anticipated future funding needs, and options
       for reducing funding needs or obtaining additional funds.

       In general, a financial institution’s funds management practices should ensure that the
       institution is able to maintain a level of liquidity sufficient to meet its financial
       obligations in a timely manner and to fulfill the legitimate banking needs of its
       community. Such practices should reflect the ability of the institution to manage
       unplanned changes in funding sources, as well as react to changes in market conditions
       that affect its ability to quickly liquidate assets with minimal loss.


Liquidity-related Guidelines

       Liquidity is a key determinant of the soundness of the banking sector. The contraction of
       liquidity has been a factor in actions taken by international and domestic organizations,
       such as the Basel Committee on Banking Supervision (BCBS), 1 the Senior Supervisors




       1
         The BCBS provides a forum for regular international cooperation among banking supervisory authorities.
       The objective of the BCBS is to enhance understanding of key supervisory issues and improve the quality
       of banking supervision worldwide. The BCBS circulates guidance on banking supervisory matters to
       financial supervisors throughout the world.

                                                            2
Group (SSG), 2 the Financial Stability Forum (FSF), 3 the Board of Governors of the
Federal Reserve System (Federal Reserve), and the federal financial institutions
regulatory agencies 4 (the “agencies”). Actions taken to enhance liquidity-related
guidelines for effective liquidity risk management include the following.

    •    BCBS issued Liquidity Risk: Management and Supervisory Challenges, dated
         February 2008; and proposed guidance, Principles for Sound Liquidity Risk
         Management and Supervision, dated June 17, 2008.

    •    SSG issued Observations on Risk Management Practices during the Recent
         Market Turbulence, dated March 6, 2008.

    •    FSF issued the Report of the Financial Stability Forum on Enhancing Market and
         Institutional Resilience, dated April 7, 2008.

    •    The agencies are taking steps to enhance liquidity risk management guidance.
         Specifically, the agencies are currently involved in an interagency initiative to
         issue guidance to supervised institutions, examiners, and other supervisory
         personnel on sound practices for managing liquidity risk, pending the issuance of
         final liquidity risk management guidance by the BCBS. The Conference of State
         Bank Supervisors is also involved in the interagency effort.

During the strained credit market of 2007 and 2008, the Federal Reserve introduced three
new lending facilities 5 to provide liquidity to the financial markets and alleviate funding
pressures. Those facilities include the Term Auction Facility, the Term Securities
Lending Facility, and the Primary Dealer Credit Facility. Of these three lending
facilities, only the Term Auction Facility, announced December 12, 2007, is available to
depository financial institutions, and those institutions must be eligible to borrow under
the Federal Reserve’s primary credit program.




2
  Members of the SSG include the French Banking Commission, German Federal Financial Supervisory
Authority, Swiss Federal Banking Commission, and United Kingdom Financial Services Authority; and the
U.S. Office of the Comptroller of the Currency (OCC), Securities and Exchange Commission, and Board of
Governors of the Federal Reserve System.
3
  The FSF brings together on a regular basis national authorities responsible for financial stability in
significant international financial centers and international financial institutions, including sector-specific
international groupings of regulators and supervisors, and committees of central bank experts. The FSF
seeks to coordinate the efforts of these various bodies to promote international financial stability, improve
the functioning of markets, and reduce systemic risk.
4
  The OCC, Federal Reserve, FDIC, Office of Thrift Supervision (OTS), and National Credit Union
Administration.
5
  Central banks use lending facilities when lending funds to primary dealers. Primary dealers are banks,
broker/dealers, or other financial institutions that meet certain liquidity and quality requirements and make
business deals with the Federal Reserve, such as underwriting new government debt.

                                                        3
FDIC Examination Guidance Related to Liquidity Risk Management

       DSC has issued liquidity-related guidance to FDIC examiners to assist in evaluating the
       adequacy of an institution’s liquidity position. According to DSC’s Risk Management
       Manual of Examination Policies (Examination Manual), examiners should consider the
       current level and prospective sources of liquidity compared to funding needs, as well as
       the adequacy of funds management practices relative to an institution’s size, complexity,
       and risk profile. The Examination Manual also states that an examiner’s evaluation of a
       financial institution’s funds management practices should ensure that liquidity is not
       maintained at a high cost or through undue reliance on funding sources that may not be
       available during times of financial stress or changes that adversely affect market
       conditions.

       The FDIC has also provided examiners the following liquidity-related guidance.

          •   the Risk Management Examination Manual of Credit Card Activities,
          •   the Risk Management Credit Card Securitization Manual,
          •   the Case Manager Procedures Manual,
          •   the Examination Documentation (ED) Modules (examiner use is optional),
          •   Regional Directors (RD) memoranda, and
          •   FDIC Rules and Regulations.


FDIC Enforcement Authority

       The Formal and Informal Action Procedures Manual (FIAP Manual) provides guidance
       on the informal actions that the FDIC can accept from financial institutions and formal
       actions that the FDIC can impose on institutions. Formal actions are notices or orders
       issued by the FDIC against insured financial institutions and/or individual respondents to
       correct noted safety and soundness deficiencies, ensure compliance with federal and state
       banking laws, assess civil money penalties, and/or pursue removal or prohibition
       proceedings. Informal actions are voluntary commitments made by an insured financial
       institution’s board of directors (BOD) and may include bank board resolutions (BBR) and
       memoranda of understanding (MOU). Such actions are designed to correct noted safety
       and soundness deficiencies or ensure compliance with federal and state laws. Section 8
       of the Federal Deposit Insurance (FDI) Act provides enforcement authority for formal
       actions, such as cease and desist (C&D) orders and termination of insurance.


RESULTS OF AUDIT

       The FDIC actively addresses institution liquidity risk through regulatory and supervisory
       activities. For the 40 financial institutions in our sample, the examiners complied with
       applicable examination guidance for assessing an institution’s liquidity and associated
       risk management and reported on those assessments in their work products and
       examination results. Specifically, we found that:

                                                    4
 •   Examiners reported on significant liquidity risk management controls, including BOD
     and senior management oversight, written policies and procedures, management
     reporting, internal controls, and contingency liquidity plans (CLP); and sources of
     funding for each of the 40 financial institutions in our sample, frequently making
     suggestions and recommendations for improvement.

 •   Seventeen of the 40 financial institutions were subject to informal or formal
     enforcement actions, 13 of which included provisions to improve liquidity risk
     management.

The FDIC’s efforts, including examination recommendations and enforcement actions,
have provided a means to address liquidity risk and indicate the FDIC’s emphasis on
controlling such risk (FDIC Examination of Liquidity Risk).

In addition, the FDIC has issued liquidity guidance to both examiners and FDIC-
supervised financial institutions and provided liquidity-related examiner training. The
FDIC has recognized that liquidity guidance and training need to be updated and has
taken steps to (1) issue a revised ED module on liquidity risk examination procedures,
(2) participate in interagency efforts to provide additional examination and institution
guidance, and (3) expand examiner training. Furthermore, we reviewed contingency
liquidity planning for 31 of the 40 institutions we sampled and identified variations in the
type of information included in those plans. With regard to ongoing efforts to update
guidance to institutions on liquidity risk management and CLPs, we compared FDIC
institution guidance to other liquidity risk guidance and (1) determined that FDIC
examiner guidance is more extensive than the financial institution guidance and
(2) identified the following practices that could assist FDIC-supervised financial
institutions in identifying, measuring, monitoring, and controlling liquidity risk. These
practices are provided for the FDIC’s consideration in its update process.

 •   Providing detailed descriptions of sound liquidity risk management controls,
     including the content of CLPs.

 •   Suggesting liquidity reports and identifying red flags that are useful in assessing
     liquidity and that can be used as leading indicators for liquidity risk.

The FDIC plans to issue updated institution guidance after the international BCBS has
issued final liquidity risk management guidance and related interagency efforts are
completed (FDIC Examination and Financial Institution Guidance for Liquidity
Risk).




                                                5
     Because we noted no matters warranting additional management action, we made no
     recommendation related to the audit objective.


FDIC EXAMINATION OF LIQUIDITY RISK

     The FDIC’s regulatory and supervisory activities to address liquidity risk include
     conducting risk management examinations and taking supervisory and enforcement
     actions to improve financial institutions’ liquidity risk management. We sampled
     40 FDIC-supervised financial institutions with increased liquidity risk 6 and determined
     that the examiners had assessed liquidity and associated risk management during those
     examinations, reported on liquidity in applicable Reports of Examination (ROE), and
     frequently made suggestions and recommendations for improvement. In addition, the
     FDIC included liquidity-related provisions in supervisory and enforcement actions
     related to 13 of the 17 actions taken for the 40 financial institutions. 7 Accordingly, we
     concluded that for the institutions we sampled, examiners complied with current
     examination policies and procedures to evaluate the adequacy of a financial institution’s
     liquidity position and funds management practices and had taken action to strengthen
     liquidity risk management controls at FDIC-supervised institutions.

     We found that examiners (1) reported on one or more of the liquidity risk management
     control elements, including BOD and senior management oversight, BOD-approved
     written policies and procedures, management reporting, internal controls, and CLPs;
     (2) evaluated sources of funding used by the institutions; and (3) identified issues needing
     bank management attention and made suggestions or recommendations for improvement
     for the 40 sampled institutions. The ROEs for these institutions contained examiner
     comments, suggestions, and recommendations as noted in the following examples.

         •    Management had not devoted sufficient time and attention to the oversight of the
              institution and had not provided clear guidance for acceptable risk exposure levels
              or ensured that appropriate policies, procedures, and practices had been
              established. The CLP was inadequate given the bank’s size and complexity.
              Management also did not employ stress testing techniques, although the bank
              heavily relied on potentially volatile liabilities to fund operations. The institution
              was rated “3” for liquidity.

         •    The institution should formally adopt a comprehensive, BOD-approved CLP and
              identify the types of events for which the institution should be prepared, including

     6
       The OIG’s determination of financial institutions with increased liquidity risk was based on those
     institutions with a liquidity risk rating that had been either lowered from a “1” to a “2” for liquidity or that
     were rated “3,” “4,” or “5” for liquidity based on the most recent examination results, as of December 31,
     2007.
     7
       The OIG reviewed the circumstances surrounding the four institutions for which enforcement actions did
     not include liquidity-related provisions. Those actions were taken for (1) safety and soundness concerns
     for other than liquidity for institutions with a “2” rating for liquidity or (2) noncompliance with the Bank
     Secrecy Act. The OIG agreed with the examiners’ decisions not to include liquidity provisions in those
     actions.

                                                              6
             systemic events that would have a significant impact on the institution’s liquidity.
             The CLP should provide for realistic action plans to address liquidity needs for
             differing levels of stress. For each potential event identified, the CLP should:
             (1) evaluate funding needs and funding capacities, (2) specify progressive actions
             and procedures to be implemented, (3) identify alternative contingency funding
             sources, and (4) measure the institution’s ability to fund operations over an
             extended period of liquidity stress. The institution was rated “2” for liquidity.

        •    The bank’s adopted investment policy did not address all the required areas, and
             current practice did not comply with the institution’s stated policy. Guidelines for
             the types of investments, maturities, ratings, internal controls, and liquidity risks
             were not defined. The examiner recommended that the institution revise the
             investment policy, increase reporting to the BOD, and develop strategies on
             available funding sources. The institution was rated “2” for liquidity.

    In addition, supervisory or enforcement actions were in place for 17 of the 40 financial
    institutions, of which 13 actions—BBRs, MOUs, and C&Ds—included liquidity-related
    provisions to assist bank management in improving liquidity risk management. Those
    actions applied to 1 institution rated “2” for liquidity and 12 institutions rated “3,” “4,” or
    “5” for liquidity. Those liquidity-related provisions included, but were not limited to,
    (1) developing, revising, and implementing a written liquidity and funds management
    plan; (2) restricting the use of brokered deposits; 8 and (3) restoring all aspects of the
    financial institution to a safe and sound condition, including asset quality, capital
    adequacy, earnings, management effectiveness, and liquidity.


FDIC EXAMINATION AND FINANCIAL INSTITUTION GUIDANCE FOR
LIQUIDITY RISK

    DSC has issued liquidity-related guidance to FDIC examiners and FDIC-supervised
    financial institutions and provided liquidity-related examiner training. These actions help
    the FDIC in ensuring that examiners have guidance to determine whether financial
    institutions have liquidity risk management controls to identify, measure, monitor, and
    control liquidity risk. The FDIC’s financial institution guidance helps institutions to
    implement CLPs for Federal Reserve discount window programs 9 and addresses the




    8
      Brokered deposits are solicited by a third-party broker and are usually, but not always, for amounts less
    than $100,000 so that all interest, as well as principal, is covered by deposit insurance. Brokers are
    typically paid a fee by the depository bank.
    9
      Discount window programs are credit facilities that financial institutions use to borrow funds from
    the Federal Reserve. The discount window helps to reduce liquidity problems for banks and assists in
    assuring the basic stability of financial markets.

                                                           7
      eligibility of asset-backed commercial paper (ABCP) liquidity facilities. 10 In addition,
      the FDIC is participating in ongoing interagency efforts to strengthen guidance to provide
      greater assurance that institutions needing to develop or strengthen their liquidity risk
      management controls will have more detailed guidance to assist in those efforts.


DSC Risk Management Manual of Examination Policies

      FDIC examiners for the 40 FDIC-supervised financial institutions we sampled complied
      with examination guidance to evaluate the adequacy of the institutions’ liquidity position
      and funds management practices. During risk management examinations, according to
      the Examination Manual, examiners should consider the current level and prospective
      sources of liquidity compared to funding needs, as well as the adequacy of funds
      management practices relative to the institution’s size, complexity, and risk profile.
      Those practices should:

           •   ensure that an institution is able to maintain a level of liquidity sufficient to meet
               its financial obligations in a timely manner and to fulfill the legitimate banking
               needs of its community;

           •   reflect the ability of the institution to manage unplanned changes in funding
               sources, as well as react to changes in market conditions that affect the ability to
               quickly liquidate assets with minimal loss; and

           •   ensure that liquidity is not maintained at a high cost or through undue reliance on
               funding sources that may not be available in times of financial stress or adverse
               changes in market conditions.

      Section 1.1 of the Examination Manual also provides information to examiners (detailed
      in Table 1 on the next page) to assist in evaluating liquidity and determining the
      appropriate rating for the “L” component in CAMELS.




      10
         ABCP conduits issue short-term notes backed by trade receivables, credit card receivables, or medium-
      term financial assets with an original maturity of 270 days or fewer. A specific pool of assets collateralizes
      the paper, which is repaid by the cash flow generated by the underlying assets and the issuance of new
      commercial paper.

                                                              8
   Table 1: Liquidity Rating Description According to DSC’s Examination Manual

   A rating of 1 indicates strong liquidity levels and well-developed funds management practices.
   The institution has reliable access to sufficient sources of funds on favorable terms to meet
   present and anticipated liquidity needs.
   A rating of 2 indicates satisfactory liquidity levels and funds management practices. The
   institution has access to sufficient sources of funds on acceptable terms to meet present and
   anticipated liquidity needs. Modest weaknesses may be evident in funds management
   practices.
   A rating of 3 indicates liquidity levels or funds management practices in need of improvement.
   Institutions rated 3 may lack ready access to funds on reasonable terms or may evidence
   significant weaknesses in funds management practices.
   A rating of 4 indicates deficient liquidity levels or inadequate funds management practices.
   Institutions rated 4 may not have or be able to obtain a sufficient volume of funds on
   reasonable terms to meet liquidity needs.
   A rating of 5 indicates liquidity levels or funds management practices so critically deficient that
   the continued viability of the institution is threatened. Institutions rated 5 require immediate
   external financial assistance to meet maturing obligations or other liquidity needs.
  Source: Examination Manual, Section 1.1.



For institutions that present increased risk for liquidity, examiners are to consider
whether the institution should be rated a “3,” “4,” or “5” for the “L” component of the
CAMELS ratings. These ratings indicate that a financial institution’s liquidity risk and
funds management practices need improvement, are deficient/inadequate, or are critically
deficient and threaten the viability of the institution.

Section 6.1 of the Examination Manual states that the formality and sophistication of
liquidity management depends on the size and sophistication of the financial institution as
well as the nature and complexity of the institution’s activities. In addition, Section 6.1
states that a financial institution should have a BOD that understands the nature and level
of the institution’s liquidity risk, establishes the institution’s tolerance for liquidity risk,
and approves significant policies related to liquidity management. Further, Section 6.1
states that financial institutions should have liquidity risk management control elements
that include:

    •   BOD-approved written policies and procedures for the day-to-day management of
        liquidity and that should be communicated throughout the institution;

    •   management reporting systems adequate to measure, monitor, and control
        liquidity risk and that provide regular reports to the BOD and senior management;

    •   adequate internal controls to ensure the integrity of the institution’s liquidity risk
        management process; and



                                                  9
           •   a CLP that (1) addresses alternative funding if initial projections of funding
               sources and uses of those funds are incorrect or if a liquidity crisis arises and
               (2) is updated regularly.

      Section 6.1 also provides information on mechanisms to monitor various internal and
      market indicators of liquidity problems at the institution. In addition, the Examination
      Manual provides specific information on retail funding sources such as core deposits 11
      and wholesale funding sources, such as federal funds, public funds, Federal Home Loan
      Bank (FHLB) advances, 12 foreign deposits, brokered deposits, and deposits obtained
      through the Internet or certificate of deposit listing services.


DSC Financial Institution Guidance

      The FDIC has issued financial institution letters (FIL), 13 specifically, FIL-59-2003 and
      FIL-74-2005 that provide liquidity-related guidance to FDIC-supervised financial
      institutions. The FILs are to be used by financial institutions as the basis for the
      development of a CLP that incorporates the Federal Reserve’s discount window
      programs, as well as other viable sources of liquidity funds, and as clarification on
      applying of the asset quality test for liquidity facilities.

           •   FIL-59-2003, Use of the Federal Reserve’s Primary Credit Program in Effective
               Liquidity Management, dated July 23, 2003, presents information on these
               programs and provides directors, management, examiners, and supervisors of
               depository institutions guidance on the appropriate use of primary and secondary
               credit in effective liquidity management, with particular focus on the primary
               credit program. 14

               In addition, FIL-59-2003 states that the agencies have advised financial
               institutions that sound liquidity risk management requires well-established
               strategies, policies and procedures, liquidity risk measurement systems, adequate
               internal controls, and contingency liquidity planning. Adequate contingency
               liquidity planning is critical to the ongoing maintenance of the safety and
               soundness of any depository institution. Such planning starts with an assessment
               of the possible liquidity events that an institution might encounter. A
      11
         Core deposits include deposits that (1) have an indefinite maturity—such as checking accounts and
      interest-bearing checking accounts, money market deposit accounts, and savings accounts; (2) are stable;
      and (3) are under $100,000 each.
      12
         FHLB advances are a popular source of funding for financial institutions. To obtain FHLB advances, an
      institution must be a member of an FHLB and, for most advances, must pledge collateral. Access to
      advance funding can increase an institution’s liquidity by affording an institution the ability to pledge
      otherwise illiquid assets as collateral.
      13
         FILs, issued to FDIC-supervised financial institutions by the Corporation, may announce new regulations
      and policies, new FDIC publications, and a variety of other matters of principal interest to those responsible
      for operating a bank or savings association.
      14
         For this program, the primary credit rate is a short-term rate charged for the most financially secure
      financial institutions. The secondary credit rate is a short-term rate charged for financial institutions that do
      not qualify for the primary rate.

                                                               10
        fundamental principle in designing contingency plans is to ensure adequate
        diversification in the potential sources of funds to be utilized.

    •   FIL-74-2005, Capital Standards, Supervisory Guidance on the Eligibility of
        Asset-Backed Commercial Paper Liquidity Facilities and the Resulting Risk-
        Based Capital Treatment, dated August 4, 2005, addresses the eligibility of ABCP
        liquidity facilities.

During our audit, we noted: (1) variations in the type and extent of information included
in financial institutions’ CLPs, (2) examiner guidance that is more extensive than
financial institution guidance, and (3) variations in the type and extent of guidance issued
by the FDIC as compared to the other agencies. These areas are described in detail in the
following paragraphs.


Contingency Liquidity Planning. DSC officials provided CLPs and related
documentation for 31 of the 40 financial institutions included in our sample. Of those
31 financial institutions, 15 were rated “2” for liquidity, and 16 were rated “3,” “4,” or
“5” for liquidity. According to the Examination Manual, CLPs help management to
monitor liquidity risk, ensure that an appropriate amount of liquid assets is maintained,
measure and project funding requirements during various scenarios, and manage access
to funding sources. Based on our analysis of the contingency liquidity planning for those
31 financial institutions and our review of the 13 plan elements listed in the Examination
Manual (as stated in Appendix 2 of this report), we determined that the institutions’
contingency planning actions widely varied as noted in Table 2 below.

Table 2: OIG Review of Contingency Planning Actions for 31 Sampled
Financial Institutions
                                                                          Number of Financial
                                                                      Institutions that Included the
                            CLP Element
                                                                        Element in Contingency
                                                                             Planning Actions
Define responsibilities and decision-making authority                               27
Identify and assess the adequacy of contingent funding sources                      23
Include an assessment of the possible liquidity events that an                      10
institution might encounter, ranging from high-probability/low-
impact events that can occur in day-to-day operations to low-
probability/high-impact events that can arise through institution-
specific, systemic market, or operational circumstances
Match potential sources and uses of funds                                           13
Identify the sequence in which sources of funds will be used for                     9
contingent needs
Assess the potential liquidity risk posed by other activities such as                4
asset sales and securitization programs
Source: Examination Manual, Section 6.1, and OIG review of CLPs for 31 of the 40 sampled financial
institutions.



                                                   11
Our review of the actions to address contingency planning for 31 financial institutions
determined that some of the 13 CLP elements included in the Examination Manual were
not always specifically covered in the contingency planning actions. However, we also
determined that financial institutions included other elements to assist the institutions in
managing liquidity risk. Those elements included, but are not limited to:

   •   identifying new customers or funding sources and maximizing current customer
       deposit business,

   •   monitoring demand deposit and time deposit activities of the largest customers,

   •   selling all unpledged securities that are at break-even or at a profit and investing
       proceeds in federal funds,

   •   limiting lending facilities if liquidity risk increases at the financial institution and
       directing the institution to take action in the following order:

              •   temporarily cease commercial lending,
              •   discontinue loans to new customers, and
              •   refuse short-term, working capital loans to existing commercial
                  customers or short-term loans to consumer customers.


Extent of Examiner Guidance Compared to Financial Institution Guidance. The
FDIC has provided liquidity-related guidance to its examiners. However, the FDIC’s
institution guidance provides limited information on liquidity risk management controls
that institutions should use to identify, measure, monitor, and control liquidity risk. In
contrast, FDIC examiner guidance contains comprehensive information to assist in the
evaluation of FDIC-supervised financial institutions’ liquidity risk and outlines specific
liquidity risk management controls that examiners should consider during risk
management examinations.

FIL-59-2003 discusses the use of the Federal Reserve’s discount window and provides
guidance, to some degree, on liquidity risk management controls, including CLPs.
Specifically, the FIL (1) provides interagency guidance on the need for financial
institutions to develop CLPs that incorporate the Federal Reserve’s discount window
programs, as well as other viable sources of liquidity funds, and (2) informs depository
institutions that sound liquidity risk management requires the four elements listed in
Table 3 on the next page.




                                                12
       Table 3: Elements of Sound Liquidity Risk Management Based on Institution
       Guidance in FIL-59-2003

        Well-established strategies, policies, and procedures for managing both the sources and
        uses of an institution’s funds across various tenors or time frames. This includes
        assessing and planning for short-term, intermediate-term, and long-term liquidity needs.
        Liquidity risk measurement systems that are appropriate for the size and complexity of
        the institution. Depending upon the institution, such measurement systems can range
        from simple cash flow measures to very sophisticated cash flow simulation models.
        Adequate internal controls and internal audit processes. Internal controls and internal
        audit reviews are needed to ensure compliance with internal liquidity management
        policies and procedures.
        Comprehensive contingency liquidity planning. Contingency plans need to be well
        designed and should span a broad range of potential liquidity events that are tailored to
        an institution’s specific business lines and liquidity risk profile.
    Source: FIL-59-2003.



The majority of the guidance on CLPs in FIL-59-2003 relates to the Federal Reserve’s
discount window, in general, and the primary and secondary credit programs, in
particular. More specifically, FIL-59-2003 does not provide detailed guidance on:

   •     BOD and senior management oversight,
   •     policies and procedures,
   •     management reports,
   •     internal controls, and
   •     warning indicators.

In contrast to the FIL, examiner guidance in the Examination Manual stresses the
importance of financial institutions’ policies and procedures established by a sound
liquidity and funds management policy and provides detailed information on the types of
institution policies and procedures needed (see Figure 1). The Examination Manual also
provides detailed examiner guidance related to other liquidity risk management controls,
including internal controls and management reporting.




                                                    13
          Figure 1: Examples of Policies and Procedures Included in Examiner Guidance
                           But Not in Financial Institution Guidance

                   Establishment of an asset/liability committee.

                   Periodic review of the bank’s deposit structure.

                   Policies and procedures that address funding concentration in, or excessive
                    reliance on, any single source or type of funding, such as brokered deposits,
                    Internet deposits, and other similar rate sensitive or credit sensitive deposits.

                   Method of computing the bank’s cost of funds.


            Source: Examination Manual, Section 6.1.



Appendix 3 provides additional information on our comparison of the FDIC’s examiner
and financial institution guidance.


Other Agencies’ Liquidity Risk Management Guidance. The FDIC and the other
agencies have addressed liquidity risk in various ways. More specifically, all of the
agencies have issued joint and individual liquidity-related guidance to the respective
institutions they supervise. For example, the agencies jointly issued guidance related to
the use of the Federal Reserve’s discount window, ABCP liquidity facilities, and a Joint
Agency Advisory on Brokered and Rate Sensitive Deposits, dated May 11, 2001, 15 which
supplements each agency's existing supervisory and examination guidance on funding
and liquidity issues. 16

However, unlike the FDIC, the other federal regulatory agencies have issued more
extensive liquidity-related institution guidance that provides detailed information on
liquidity risk management controls. For example, other agency guidance includes
detailed information on sound practices for liquidity management, suggested liquidity
reports, and red flags (see Figure 2) that may be used as leading indicators of liquidity-
related problems.

15
     Our audit did not include a detailed review of those types of deposits, except to identify the type and extent of
related guidance.
16
   In this advisory, the agencies warned that excessive reliance on these types of funding products without
proper risk management safeguards could weaken an institution’s financial condition. Financial institutions
that make use of significant amounts of brokered and rate-sensitive deposits (such as those obtained
through the Internet, certificate of deposit listing services, and similar advertising services) should ensure
that proper risk management practices are in place. Such practices include control structures to limit
concentrations in this type of funding, due diligence in assessing deposit brokers and the risk to earnings
and capital, and appropriate management reporting. The advisory lists potential red flags that may indicate
the need for closer supervisory review, including newly chartered institutions with an aggressive growth
strategy and few relationship deposits, high on- or off-balance sheet growth rates, and inadequate systems
or controls.

                                                               14
                             Figure 2: Red Flags That May Indicate Problems Related to
                                        Liquidity Risk Management

                      Exceeding liquidity risk limits established by the financial institution’s
                       BOD.

                      Changes in significant funding sources.

                      Rapid asset growth funded by rate and/or credit sensitive funding, such as
                       brokered deposits or deposits obtained through certificate of deposit listing
                       services.

                      Eliminated or decreased credit line availability from lenders.

                      Ineffective CLPs that are not current and commensurate with the
                       complexity of the financial institution’s funding activities.


             Source: OCC financial institution guidance, Detecting Red Flags in Board Reports—A Guide
             for Directors.



      Appendix 4 of this report contains additional information on guidance provided by the
      other federal regulatory agencies.


Conclusion

      The FDIC has initiatives underway to review and enhance financial institution and
      examiner liquidity-related guidance based on forthcoming BCBS guidance. The FDIC
      plans to issue updated institution guidance after the BCBS has issued final liquidity risk
      management guidance and related interagency efforts are completed. Because we noted
      no matters warranting additional management action, we made no recommendation
      related to the audit objective.


CORPORATION COMMENTS

      On July 23, 2008, the Director, DSC, provided a written response to the draft report.
      DSC’s response is provided in its entirety as Appendix 5 of this report. In its response,
      DSC acknowledged the FDIC’s role in the BCBS’ Working Group on Liquidity, which is
      in the process of developing updated guidance expected to be issued later in 2008 and is
      planning to issue domestic interagency guidance shortly after the BCBS guidance is
      finalized. DSC also stated that the FDIC:



                                                          15
•   is involved with international and interagency partners in providing industry
    guidance as well as training to examiners; and

•   plans to issue updated financial institution guidance shortly that provides
    detailed descriptions of sound liquidity risk management controls and suggests
    key liquidity reports and typical red flags that are useful in assessing liquidity
    and that can be used as leading indicators for liquidity risk.




                                          16
                                                                                                  APPENDIX 1
                             OBJECTIVE, SCOPE, AND METHODOLOGY


Objective and Scope

      The audit objective was to assess how the FDIC addresses institution liquidity risk
      through various regulatory and supervisory activities. Specifically, we reviewed (1) risk
      management examinations; (2) institution and examination policies, procedures, and
      guidance; and (3) examiner training. We conducted this performance audit from
      November 2007 through May 2008 in accordance with generally accepted government
      auditing standards. Those standards require that we plan and perform the audit to obtain
      sufficient, appropriate evidence to provide a reasonable basis for our significant findings
      and conclusions based on our audit objectives. We believe that the evidence obtained
      provides a reasonable basis for our findings and conclusions based on our audit
      objectives.


Methodology

      To obtain an understanding of DSC guidance for liquidity risk, we interviewed DSC
      officials in Washington, D.C., and reviewed the following FDIC financial institution and
      examiner guidance related to liquidity:

           •   two FILs issued to financial institutions,
           •   the Risk Management Examination Manual of Credit Card Activities,
           •   the Risk Management Credit Card Securitization Manual,
           •   the Case Manager Procedures Manual,
           •   ED Modules,
           •   RD memoranda, and
           •   Parts 325 and 337 of the FDIC Rules and Regulations.

      In addition, we reviewed a non-statistical sample 17 of 40 FDIC-supervised financial
      institutions, which consisted of 20 institutions for which the liquidity rating had been
      lowered from “1” to “2” at the most recent examination and 20 institutions with a
      liquidity rating of “3,” “4,” or “5.” The sample was selected as of December 31, 2007
      and included the 10 largest institutions rated “2” in liquidity and the 10 largest
      institutions rated “3,” “4,” or “5” based on total asset size. The sample also included
      10 randomly-selected institutions from each of those two categories. For those
      40 financial institutions, we obtained supervisory documentation from the FDIC’s Virtual
      Supervisory Information on the Net (ViSION) 18 System that included:




      17
         The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.
      18
         DSC uses ViSION to capture data from the ROEs and other supervisory information.


                                                             17
                                                                                                APPENDIX 1


           •   ROEs and visitation reports;
           •   state regulatory agencies’ examination results;
           •   supervisory documentation that included pre-examination planning data; liquidity
               ratios; targeted risk areas; supervisory plans; FDIC supervisory comments on
               various supervisory issues, including enforcement actions, progress reports,
               correspondence, and offsite reviews; problem bank memoranda; and supervisory
               and enforcement actions; and
           •   supervisory comments on large insured depository institutions, 19 if applicable.

      We limited our review to information readily obtainable from ViSION and did not review
      any examination work papers or regional or field office correspondence except
      information related to CLPs for 31 of the 40 sampled financial institutions.

      We developed a data collection instrument focusing on broad categories of liquidity and
      management controls described in examiner guidance included in DSC’s Examination
      Manual. Those categories included:

               •   BOD and senior management oversight,
               •   written policies and procedures,
               •   management reporting to the institution’s BOD and senior management,
               •   internal controls,
               •   CLPs, and
               •   sources of funding.


Internal Control

      To obtain an understanding of relevant internal controls, we interviewed DSC officials
      and reviewed FDIC policies and procedures provided to financial institutions and
      examiners in the following:

           •   FILs—issued by the FDIC to the institutions it supervises, address issues such as
               the use of the Federal Reserve’s primary credit program (FIL-59-2003, dated
               July 23, 2003) and the eligibility of ABCP liquidity facilities (FIL-74-2005, dated
               August 4, 2005).

           •   DSC’s Examination Manual—provides guidance to assist examiners in
               evaluating the adequacy of a financial institution’s liquidity position, taking into
               consideration the institution’s current level and prospective sources of liquidity
               compared to funding needs, as well as the adequacy of funds management
               practices relative to the institution’s size, complexity, and risk profile.

           •   Risk Management Examination Manual of Credit Card Activities—provides
               guidance to assist the examiner’s review of the credit card activities process,

      19
        The FDIC’s Large Insured Depository Institution program assesses the risk that financial institutions with
      consolidated banking assets that exceed $10 billion present to the Deposit Insurance Fund.

                                                            18
                                                                                      APPENDIX 1

             including its relationship to liquidity. The manual addresses various areas that
             examiners should consider during examinations, including but not limited to,
             funds management policies, CLPs, cash flows for credit card lending, brokered
             and rate-sensitive deposits, securitization, asset management, and funding
             concentrations.

         •    Risk Management Credit Card Securitization Manual—serves as guidance for
             examiners in their review of the credit card securitization process, including its
             relationship to liquidity. The manual discusses the principals involved in the
             credit card securitization process such as ABCP conduits and their roles and
             liquidity facilities. According to the manual, examiners should review the
             liquidity implications of the institution’s securitization activities in relation to the
             bank's normal liquidity management process, including contingency planning.

         •   ED Module, Liquidity—is designed to assist examiners in providing consistency
             and standardized procedures and decision factors during risk management
             examinations. The ED module provides core, expanded, and impact examination
             procedures. Examiner use of the module is discretionary.

         •   RD Memoranda—address the following liquidity-related topics.

                 •   Federal Home Loan Bank Advances, Transmittal Number 2000-046, dated
                     August 22, 2000.

                 •   Revised Examination Guidance for Liquidity and Funds Management,
                     Transmittal Number 2002-01, dated November 19, 2001.

                 •   Wholesale Funding, Transmittal Number 02-039, dated August 28, 2002.


Reliance on Computer-processed Information

      For purposes of the audit, we did not rely on computer-processed information to support
      our findings, conclusions, and recommendations. Our assessment centered on the review
      of:

         •   The FDIC’s ROEs and visitation reports and state regulatory agencies’
             examination results for the most recent examination conducted as of
             December 31, 2007;

         •   supervisory documentation that included pre-examination planning data and
             liquidity ratios, targeted risk areas, supervisory action plans, FDIC supervisory
             comments, and problem bank memoranda;

         •   supervisory and enforcement actions; and



                                                      19
                                                                                   APPENDIX 1


         •   supervisory comments on large insured depository institutions, if applicable.

      We determined that information system controls were not significant to our audit
      objectives. Accordingly, we did not consider it necessary to develop procedures to assess
      those controls. In addition, the FDIC OIG is currently conducting an audit entitled,
      ViSION System’s Data Reliability and Security Controls. The objective of that audit is to
      assess the reliability of key supervisory information in the FDIC’s ViSION system.


Compliance with Laws and Regulations

      We coordinated with the Counsel to the Inspector General to identify the laws and FDIC
      regulations related to liquidity risk and to determine specific requirements that would
      apply to FDIC-supervised institutions, in general, and DSC examinations, in particular.
      We determined that there are no laws and regulations applicable to liquidity risk, in
      general. However, there are specific laws and regulations that relate to restrictions placed
      on financial institutions based on capital level categories established by Section 38 of the
      FDI Act, the use of funding sources such as brokered deposits in compliance with
      Section 29 of the FDI Act, and borrowings from the Federal Reserve Banks in
      compliance with Section 10B of the Federal Reserve Act and Section 41 of the FDI Act.
      During the course of the audit, no instances of noncompliance come to our attention.

      We assessed the risk of fraud and abuse related to the audit objective in the course of
      evaluating audit evidence.


Performance Measurement

      The Government Performance and Results Act of 1993 directs Executive Branch
      agencies to develop a strategic plan that sets performance goals and objectives for agency
      management. We reviewed the FDIC’s 2005-2010 Strategic Plan, the 2008 Annual
      Performance Plan, and DSC’s divisional performance objectives to determine whether
      the Corporation and/or DSC had performance goals, objectives, and indicators or targets
      that specifically relate to the examination of financial institutions for liquidity risk.

      We did not identify any specific performance goals related to liquidity risk. However,
      according to the FDIC’s 2008 Annual Performance Plan, the FDIC has established the
      following strategic goal, objective, performance goals, and indicators and targets related
      to the risk management components of the FDIC’s Supervision Program, which relates to
      the examination and supervision of financial institutions’ liquidity risk management.




                                                    20
                                                                                                APPENDIX 1



      Table 4: The FDIC’s Activities to Address the Government Performance and Results Act
        Strategic     Strategic
                                          Annual Performance Goals                      Indicators And Targets
          Goal        Objective
                                                                                  Indicator: Percentage of required
                                     Conduct on-site risk management              examinations conducted in
                                     examinations to assess the overall           accordance with statutory
                                     financial condition, management              requirements and FDIC policy.
                                     practices and policies, and compliance
                                     with applicable laws and regulations of      Target: 100 percent of required risk
      FDIC-          FDIC-           FDIC-supervised depository institutions.     management examinations are
      supervised     supervised                                                   conducted on schedule.
      institutions   institutions    Take prompt and effective supervisory        Indicator: Percentage of follow-up
      are safe and   appropriately   action to address issues identified during   examinations of problem institutions
      sound.         manage risk.    the FDIC examination of FDIC-                conducted within required time
                                     supervised institutions that receive a       frames.
                                     composite uniform financial institutions
                                     rating of “4” or “5” (problem                Target: 100 percent of follow-up
                                     institution). Monitor FDIC-supervised        examinations are conducted within
                                     insured depository institutions’             12 months of completion of the prior
                                     compliance with formal and informal          examination.
                                     enforcement actions.

      Source: The FDIC’s 2008 Annual Performance Plan.


Prior Coverage

      In an August 1996 audit report entitled, Audit of the Effectiveness of Deposit Restrictions
      on Institutions That Are Not Well Capitalized (Audit Report No. 96-083), the FDIC OIG
      reported on the effectiveness of deposit restrictions on institutions that were not well
      capitalized, as defined in Section 29 and 11(a)(1)(D)(ii) of the FDI Act. Section 29,
      Brokered Deposits, restricts the acquisition of brokered and high-rate deposits by all but
      well-capitalized financial institutions. Section 11, Insurance Funds, reduces the amount
      of deposit insurance coverage available for retirement and other employee benefit plan
      deposits when an institution is restricted from accepting brokered deposits. Both of these
      provisions were designed to contribute to the reduction of losses to the Deposit Insurance
      Funds by limiting problem institutions’ access to certain sources of volatile deposits that
      may allow weak institutions to continue funding operations. The OIG concluded that
      Section 29 and Section 11 had not always been effective in restricting less than well-
      capitalized banks’ access to volatile deposits and reducing insurance fund losses,
      respectively. In addition, the OIG concluded that interest rate restrictions in Section 29
      were so complex that implementation of this restriction was difficult and burdensome to
      administer. The report made several recommendations to address identified deficiencies.




                                                           21
                                                                                               APPENDIX 2

             GUIDANCE IN DSC’S EXAMINATION MANUAL ON CLPS


DSC’s Examination Manual presents information on CLPs and 13 elements that the plans
should include. The Examination Manual states that a CLP helps ensure that a financial
institution can prudently and efficiently manage routine and extraordinary fluctuations in
liquidity. The Examination Manual also states that each institution’s liquidity policy
should have a CLP that addresses alternative funding if initial projections of funding
sources and uses are incorrect or if a liquidity crisis arises. Such a plan also helps
management to monitor liquidity risk, ensure that an appropriate amount of liquid assets
is maintained, measure and project funding requirements during various scenarios, and
manage access to funding sources. As specifically stated in the manual:

      The contingency plan should be updated on a regular basis and:

      •   Define responsibilities and decision-making authority so that all personnel understand
          their role during a problem-funding situation.
      •   Include an assessment of the possible liquidity events that an institution might
          encounter. The types of potential liquidity events considered should range from high-
          probability/low-impact events that can occur in day-to-day operations, to low-
          probability/high-impact events that can arise through institution-specific, systemic
          market, or operational circumstances.
      •   Assess the potential for erosion (magnitude and rate of outflow) by funding sources
          under optimistic, pessimistic, and status quo scenarios.
      •   Assess the potential liquidity risk posed by other activities such as asset sales and
          securitization programs.
      •   Analyze and make quantitative projections of all significant on- and off-balance sheet
          fund flows and their related effects.
      •   Match potential sources and uses of funds.
      •   Establish indicators that alert management to a predetermined level of potential risks.
      •   Identify and assess the adequacy of contingent funding sources. The plan should
          identify any back-up facilities (lines of credit), the conditions related to their use, and
          the circumstances where the institution might use them. Management should
          understand the various conditions, such as notice periods, that could affect access to
          [the] back-up line and test the institution’s ability to borrow from established back-up
          [line] facilities.
      •   Identify the sequence in which sources of funds will be used for contingent funding
          needs. The uncertainty of the magnitude and timing of available resources may call
          for different priorities in different situations.
      •   Assess the potential for triggering legal restrictions on the bank’s access to brokered
          deposits under PCA [prompt corrective action] standards and the effect on the bank’s
          liability structure.
      •   Accelerate the timeframes for reporting, such as daily cash flow schedules, in a
          problem liquidity situation.
      •   Address procedures to ensure funds will meet the overnight cash letter. 20
      •   Include an asset tracking system that monitors which assets are immediately available
          for pledging or sale and how much a cash sale of these assets will generate.




20
  Cash letters are sent to a bank for transmittal to other banks for the purpose of clearing checks drawn on
other banks.

                                                        22
                                                                                            APPENDIX 3

    OIG COMPARISON OF LIQUIDITY GUIDANCE FOR EXAMINERS AND
                    FINANCIAL INSTITUTIONS



                                                                             FDIC              FDIC
                                                                            Examiner   Financial Institution
                                                                            Guidance   Letter (FIL 59-2003)
                Description of Guidance on Liquidity
                                                                9 = Yes              9 = Yes
                                                                8 = No               8 = No
              Liquidity Management—General Liquidity Management Risk Control Elements:
BOD and senior management oversight.                               9                    8

Policies and procedures.                                                       9                9
Internal controls.                                                             9                9
Management reporting.                                                          9                8
Warning indicators.                                                            9                8
CLPs.                                                                          9                9

      Liquidity Management—Specific Guidance on General Liquidity Management Risk Control Elements:
                                       BOD and Senior Management Oversight
Establishing procedures, guidelines, internal controls, and limits for    9                8
managing and monitoring liquidity.
Preparing CLPs.                                                           9                8
Reviewing the institution’s liquidity position on a regular basis and     9                8
monitoring internal and external factors and events that could affect the
institution’s liquidity.
Reviewing liquidity strategies, policies, and procedures.                 9                8

                                                 Policies and Procedures
Provides for the establishment of an asset/liability committee.                9                8
Provides for the periodic review of the bank’s deposit structure.              9                8
Provides policies and procedures that address funding concentration in,        9                8
or excessive reliance on, any single source or type of funding, such as
brokered deposits, Internet deposits, and other similar rate-sensitive or
credit-sensitive deposits.
Provides a method of computing the bank’s cost of funds.                       9                8
Determines which types of investments are permitted, the desired mix,          9                9
the maturity distribution, and the amount of funds that will be
available.
Conveys the BOD’s risk tolerance and establishes target liquidity ratios       9                8
such as loan-to-deposit ratio, longer-term assets funded by less stable
funding sources, individual and aggregate limits on borrowed funds by
type and source, or a minimum limit on the amount of short-term
investments.
Provides an adequate system of internal controls that ensures the              9                9
independent and periodic review of the liquidity management process
and compliance policies and procedures.




                                                             23
                                                                                           APPENDIX 3

                                                                           Examiner   Financial Institution
                                                                           Guidance   Letter (FIL 59-2003)
                Description of Guidance on Liquidity
                                                                           9 = Yes          9 = Yes
                                                                           8 = No           8 = No

Ensures that the BOD and senior management are given the means to             9                8
periodically review compliance with policy guidelines, such as
compliance with established limits and legal reserves requirements,
and to verify that duties are properly segregated.
Includes a CLP that addresses alternative sources of funds if initial         9                9
projections of funding sources and uses are incorrect or if a liquidity
crisis arises. Establishes bank lines and periodically tests their use.
Establishes a process for measuring and monitoring liquidity, such as         9                9
generating proforma cash flow projections or using models.
Defines approval procedures for exceptions to policies, limits, and           9                8
authorizations.
Provides for tax planning.                                                    9                8
Provides authority and procedures to access wholesale funding sources         9                8
and includes guidelines for the types and terms of each wholesale
funding source permitted. Defines and establishes a process for
measuring and monitoring unused borrowing capacity.

                                                    Management Reports
Identifies liquidity needs and the sources of funds available to meet         9                8
these needs over various scenarios. The maturity distribution of assets
and liabilities and expected funding of commitments would be useful in
preparing the management report.
Provides a list of large funds providers.                                     9                8
Generates reports on asset yields, liability costs, net interest margins      9                8
and variations from the prior month and budget. Reports should be
sufficiently detailed to permit an analysis of causes of interest margin
variations.
Identifies longer-term interest margin trends.                                9                8
Generates reports on any exceptions to policy guidelines.                     9                8
Generates reports on economic conditions in the bank’s trade area,            9                8
interest rate projections, and any anticipated deviations from the
original plan or budget.
Provides information concerning non-relationship or higher-cost               9                8
funding programs. At a minimum, this information should include a
listing of public funds obtained through each significant program and
the rates paid.

                                                   Internal Controls
Ensures the integrity of the liquidity risk management process.               9                9
Should promote effective operations, reliable financial and regulatory        9                8
reporting and compliance with laws.
Should promote compliance with institutional policies.                        9                9
Internal control systems should provide appropriate approval processes        9                9
and limits and ensure regular and independent evaluation and review of
the liquidity risk management process.
Internal control reviews should address any significant changes in the        9                8
nature of the instruments acquired, limits, and controls since the last
review.
Instrument positions that exceed established limits should receive            9                8
prompt management attention.


                                                              24
                                                                                               APPENDIX 3

                                                                               Examiner   Financial Institution
                                                                               Guidance   Letter (FIL 59-2003)
                Description of Guidance on Liquidity
                                                                               9 = Yes          9 = Yes
                                                                               8 = No           8 = No



                                                      Warning Indicators
Monitor various internal and market indicators of liquidity problems at           9                8
the institution.
Indicators serve as early warning signals of a potential problem or as            9                8
later-stage indicators that the institution has a serious liquidity problem.
Examples of indicators may include: rapid asset growth funded by
potentially volatile liabilities; real or perceived negative publicity;
decline in asset quality; decline in earnings performance or projections;
correspondent banks decrease or eliminate credit line availability; and
counterparties and brokers are unwilling to deal in unsecured or longer-
term transactions.
Indicators that the institution may have a serious liquidity problem              9                8
include: volume of turndowns in the brokered markets is unusually
large; certain providers, such as money managers and public entities,
abandon the bank; the institution receives requests from depositors for
early withdrawal of their funds; transaction sizes decrease; and an
increasing spread paid on deposits relative to competitors.


                                                              CLP
Should address alternative funding if initial projections of funding              9                9
sources and uses are incorrect or if a liquidity crisis arises.
Helps to ensure that a bank or consolidated company can prudently and    9                         9
efficiently manage routine and extraordinary fluctuations in liquidity.
The CLP also helps management monitor liquidity risk to ensure that
an appropriate amount of liquidity assets is maintained, measure and
project funding requirements during various scenarios, and manage
access to funding sources.
A CLP is even more critical for banks that have an increasing reliance   9                         9
on alternative funding sources.
Should be updated on a regular basis and include the 13 CLP elements.    9                         8
(Refer to report Appendix 2.)
Source: OIG Analysis of guidance in DSC’s Examination Manual and FDIC FIL-59-2003.




                                                                25
                                                                                                   APPENDIX 4

                           OTHER FEDERAL REGULATORY AGENCIES’
                               LIQUIDITY-RELATED GUIDANCE


     This appendix contains detailed information related to actions taken by the OTS, OCC,
     and Federal Reserve to address institution liquidity risk, discussed in our report section
     entitled, FDIC Examination and Financial Institution Guidance for Liquidity Risk. Those
     actions include guidance that each agency has issued individually, as discussed below. 21


OTS Guidance

     The OTS has issued Sound Practices for Liquidity Management at Savings Associations-
     Thrift Bulletin 77, which includes specific guidance for management and the BOD of
     thrift institutions on liquidity management and states that:

          •   Each institution should have a written strategy for the day-to-day management of
              liquidity.

          •   The liquidity strategy should define the institution’s general approach to
              managing liquidity, including various quantitative and qualitative targets.

          •   The liquidity strategy should cover specific policies on the composition of assets
              and liabilities, the use of wholesale funding, and strategies for addressing
              temporary and long-term liquidity disruptions.

     In addition, Bulletin 77 provides detailed information, including suggested sound
     liquidity practices, on each of the components of liquidity risk management, including,
     but not limited to:

          •   BOD and senior management oversight,
          •   policies and procedures,
          •   management reporting to the institution’s BOD and senior management,
          •   measuring and monitoring liquidity,
          •   scenario analysis,
          •   contingency planning, and
          •   managing access for funding sources.




     21
        In addition to the liquidity-related guidance provided to financial institutions, each of the agencies has
     issued liquidity-related guidance to their respective examination staffs. More specifically,
         • OCC has issued examiner guidance in its Comptroller’s Handbook, Liquidity.
         • FRB his issued examiner guidance in its Commercial Bank Examination Manual, Bank Holding
            Company Supervision Manual and Trading and Capital Markets Activities Manual.
         • OTS has issued examiner guidance in its Examination Handbook.


                                                              26
                                                                                    APPENDIX 4


OCC Guidance

     The OCC has provided the following extensive liquidity-related guidance to its financial
     institutions to assist in identifying, measuring, monitoring, and controlling liquidity risk.

     The Director’s Book—The Role of the National Bank Director. The handbook
     (1) contains general concepts and standards for the safe and sound operation of a bank;
     and (2) outlines the responsibilities of the BOD, highlighting areas of particular concern,
     and addresses, in broad terms, the duties and liabilities of the individual director.
     Examples from the handbook follow:

        •     The BOD must make certain that the bank’s liquidity risk position is reasonable
              and does not compromise the bank’s ability to maintain earnings and protect
              capital.

        •     Such risks must be commensurate with management’s expertise and the bank’s
              balance sheet flexibility, especially since rapidly changing market conditions can
              have a substantial impact on the bank’s position.

        •     Management should provide regular reports to the BOD on all off-balance sheet
              activity. These reports should explain the types and amount of risk involved and
              indicate which internal controls and audit and monitoring functions are in place
              to manage risks.

        •     Management should provide the BOD with relevant and appropriate financial
              information. Useful reports are likely to include the following information:
              budgeted compared to actual performance; portfolio activity, including classified
              asset trends, significant loans, past dues, and renewals; liquidity trends; off-
              balance sheet exposures, including derivatives activities; large depositor listings
              to determine volatile liabilities; and interest rate sensitivity reports.

     Detecting Red Flags in Board Reports—A Guide for Directors. The OCC issued this
     guide to assist the BOD of a financial institution in assessing risk prospectively. This
     guide identifies various leading indicators of increasing credit risk, liquidity risk, and
     interest rate risk that should be a part of ongoing BOD reports.

     Additionally, the guide states that the BOD should regularly receive reports on liquidity
     risk. To effectively use financial information, directors should review the trend and level
     of individual measures and the interrelationships among capital, asset quality, earnings,
     liquidity, market risk, and balance sheet growth. The BOD and institution management
     should ensure that the institution has a realistic CLP in case of market disruptions.

     The guide includes the following suggested reports that should assist the directors in
     assessing the bank’s liquidity risk:




                                                    27
                                                                              APPENDIX 4


   •   Liquidity risk report—shows the level and trend of the financial institution’s
       liquidity risk by a variety of appropriate measures. The report should indicate
       how much liquidity risk the institution is assuming, whether management is
       complying with risk limits, and whether management’s strategies are consistent
       with the BOD’s expressed risk tolerance.

   •   Funds provider report—lists large funds providers and identifies funding
       concentrations.

   •   Projected needs and sources report—projects future liquidity needs for a
       prescribed timeframe and compares these projections to available sources of
       funds.

   •   Funds availability report—states the amount of borrowing capacity based on
       established lines of credit and indicates the amount of funding the financial
       institution can obtain based on its financial condition and qualifying collateral.

   •   Cash flow or funding gap report—reflects the quantity of cash available compared
       to the quantity of cash required within the same periods. The difference between
       the available and required amounts is the cash flow or funding “gap.” The report
       may also include growth projections and the impact of rate changes on cash flows.

   •   Funding concentration report—reflects significant funding from a single source or
       from multiple sources that have common credit or rate sensitivity. A funding
       concentration occurs when a single decision or factor might cause a significant
       and sudden withdrawal of funds.

   •   CLP—may incorporate the funding gap report or may be an outgrowth of that
       report. The CLP forecasts funding needs and funding sources under varying
       market scenarios resulting in rapid liability erosion.

The OCC guide also provides a list of liquidity ratios and red flags the institution’s BOD
can use as leading indicators of problems related to liquidity risk. The red flags include
the following:

   •   Exceeding liquidity risk limits established by the financial institution’s BOD.
   •   Frequent exceptions to the financial institution’s liquidity risk policy.
   •   Change in significant funding sources.
   •   Funding concentration from a single source or multiple sources with a common
       credit or rate sensitivity.
   •   Rapid asset growth funded by rate and/or credit-sensitive funding, such as
       brokered deposits, or deposits obtained through certificate of deposit listing
       services.
   •   Large purchases in the brokered funds or other potentially volatile markets.
   •   Eliminated or decreased credit line availability from lenders.
   •   Mismatching funds by funding long-term assets with short-term liabilities.

                                              28
                                                                                                APPENDIX 4


           •   Ineffective CLPs that are not current and commensurate with the complexity of
               the financial institution’s funding activities.


Federal Reserve Guidance

      The Federal Reserve has provided liquidity-related guidance to the financial institutions it
      supervises in various Supervision and Regulation (SR) Letters. 22 For example, the SR
      Letter entitled, Bank Holding Company Funding and Liquidity (SR-90-20), dated
      June 22, 1990, provides information on (1) the avoidance of funding strategies or
      practices that could undermine public confidence in liquidity or stability and (2) prudent
      financial practices for bank holding companies, including establishing and maintaining
      reliable funding and contingency plans. An excerpt from the guidance follows:

           •    Bank holding companies should establish and maintain reliable CLPs to meet
           ongoing liquidity needs and to address any unexpected funding mismatches that could
           develop over time. Such plans could include reduced reliance on short-term
           purchased funds, greater use of longer-term financing, appropriate internal limitations
           on parent company funding of long-term assets, and reliable alternate sources of
           liquidity.

           •    Prudent internal liquidity policies and practices should include specifying limits
           for, and monitoring the degree of reliance on, particular maturity ranges and types of
           short-term funding. Special attention should be given to the use of overnight money
           since a loss of confidence in the issuing organization could lead to an immediate
           funding problem.




      22
        FRB has issued various SR Letters that provide guidance related to liquidity risk including, but not
      limited to, SR-90-20, dated June 22, 1990, entitled, Bank Holding Company Funding and Liquidity;
      SR-93-69, dated December 20, 1993, entitled, Examining Risk Management and Internal Controls for
      Trading Activities of Banking Organizations; and SR-97-21, dated July 11, 1997, entitled, Risk
      Management and Capital Adequacy of Exposures Arising from Secondary Market Credit Activities.

                                                            29
                                                                 APPENDIX 6
           ACRONYMS USED IN THE REPORT


ABCP     Asset-Backed Commercial Paper
BBR      Bank Board Resolution
BCBS     Basel Committee on Banking Supervision
BOD      Board of Directors
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
           Sensitivity to Market Risk
CLP      Contingency Liquidity Plan
DSC      Division of Supervision and Consumer Protection
ED       Examination Documentation
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIAP     Formal and Informal Action
           Procedures
FIL      Financial Institution Letter
FSF      Financial Stability Forum
GAO      U.S. Government Accountability Office
MOU      Memorandum of Understanding
NCUA     National Credit Union Administration
OCC      Office of the Comptroller of the
           Currency
OTS      Office of Thrift Supervision
RD       Regional Directors
ROE      Report of Examination
SR       Supervision and Regulation
SSG      Senior Supervisors Group
UFIRS    Uniform Financial Institutions Rating
           System
ViSION   Virtual Supervisory Information on
           the Net




                                31
